CERTIFICATE OF SERVICE
No.
IN THE SUPREME COURT OF THE UNITED STATES
YOUNG COUNTY, TEXAS; YOUNG COUNTY SHERIFF'S
DEPARTMENT, PETITIONERS
V.
NICHOLE SANCHEZ; CASY SIMPSON; EDWARD LARDY
SIMPSON, II, INDIVIDUALLY AND AS THE
REPRESENTATIVE OF THE ESTATE OF DIANA LYNN
SIMPSON, RESPONDENTS
CERTIFICATE OF SERVICE

Cass Weiland, hereby certify that one
unbound copy of the foregoing Petitioner's Petition for
Writ of Certiorari in Young County, Texas, Young
County Sheriff's Department v. Nichole Sanchez, Casy
Simpson, II, individually and as the Representative of
the Estate of Diana Lynn Simpson was sent via
overnight U.S. mail to the Supreme Court, and that
per the Court's Order dated April 15, 2020, re:
COVID-19, an electronic copy was served on the
following parties, listed below on the 2nd day of
October 2020:
I, S.

Joseph F. Cleveland, Jr.
Brackett & Ellis, P.C.
100 Main Street
Fort Worth, Texas 76102
icleveland@belaw.com
Counsel for Respondent
Christine Lynne Stetson
Bernsen Law Firm
420 N. Martin Luther King, Jr. Parkway
Beaumont, Texas 77701
cstetson@bernsenlaw.com
ent
Co zz
0

S. ss Weilan
Lead Counsel for Petitioners
Squire Patton Boggs (U.S.) LLP
2000 McKinney Ave., Suite 1700
Dallas, Texas 75201
(214) 758-1504
cass.weiland@suuireob.com

STATE OF TEXAS
COUNTY OF DALLAS

ยง

Subscribed and sworn to before me on this 2nd
day of October 2020.

MARTHA C. ROSE
My Notary fa # 131690
Expires December 8, 2020

[SEAL]

M tha C. Rose
No ry Public, State of Texas
My Commission Expires
December 8, 2020

